OFFICE OF AUDIT
REGION 5
CHICAGO, IL




       Aurora, IL Housing Authority’s
American Recovery and Reinvestment Act Public
         Housing Capital Fund Grant




2012-CH-1010                          SEPTEMBER 5, 2012
                                                        Issue Date: September 5, 2012

                                                        Audit Report Number: 2012-CH-1010


TO: Steven Meiss, Director of Public Housing Hub, 5APH

      //signed//
FROM: Kelly Anderson, Regional Inspector General for Audit, 5AGA

SUBJECT: The Aurora Housing Authority, Aurora, IL, Did Not Administer Its Grant in
         Accordance With Recovery Act, HUD, and Its Own Requirements

    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG), final audit report of our review of the Aurora Housing Authority’s
American Recovery and Reinvestment Act Public Housing Capital Fund stimulus formula grant.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
(312) 913-8684.
                                                                             September 5, 2012
                                                       The Aurora Housing Authority, Aurora, IL,
                                                       Did Not Administer Its Grant in Accordance
                                                       With Recovery Act, HUD’s, and Its Own
                                                       Requirements



Highlights
Audit Report 2012-CH-1010

What We Audited and Why                      What We Found

We audited the Authority’s Recovery
Act formula grant. The audit was part        The Authority did not administer its grant in
of the activities in our fiscal year 2012    accordance with Recovery Act, HUD’s, and its own
annual audit plan. We selected the           requirements. While the Authority generally obligated
Authority based upon our analysis of         and expended its Recovery Act funds in accordance
risk factors related to the housing          with Recovery Act rules and regulations, it did not
agencies in Region V’s 1 jurisdiction.       ensure that its contractors (1) purchased products
Our objective was to determine whether       manufactured in the United States in accordance with
the Authority administered its grant in      the Buy American Act or that met Energy Star
accordance with Recovery Act, HUD’s,         standards and (2) paid prevailing wages in accordance
and its own requirements.                    with the Davis-Bacon Act. Further, the Authority did
                                             not (1) follow Federal and its own procurement
What We Recommend                            requirements, (2) document that work was complete
                                             before payments were made, and (3) correctly report
We recommend that the Director of            the progress of its Recovery Act grant activities.
HUD’s Chicago Office of Public
Housing require the Authority to (1)         As a result of the Authority’s noncompliance, HUD
reimburse HUD $2,400 from non-               and the Authority lacked assurance that more than
Federal funds for transmission to the        $346,000 in Recovery Act grant funds was used
U.S. Treasury, (2) support or reimburse      appropriately. Additionally, the public did not have
HUD more than $343,000 from non-             access to accurate information regarding the number of
Federal funds for transmission to the        jobs created and retained with formula grant funds, and
U.S. Treasury, (3) pursue collection         the Authority’s use of formula grant funds was not
from the contractor or reimburse the         transparent.
contractor’s employees more than $900
from non-Federal funds, (4) ensure that      We informed the Authority’s executive director and
its staff is trained on and familiar with    the Director of HUD’s Chicago Office of Public
Federal procurement requirements, and        Housing of minor deficiencies through a
(5) implement adequate procedures and        memorandum, dated September 5, 2012.
controls to address the findings cited in
this audit report.


1
 Region V includes the States of Illinois,
Indiana, Michigan, Minnesota, Ohio, and
Wisconsin.
                            TABLE OF CONTENTS

Background and Objective                                                       3

Results of Audit
      Finding: The Authority Did Not Follow Recovery Act, HUD’s, or Its Own
               Requirements                                                    4

Scope and Methodology                                                         10

Internal Controls                                                             12

Appendixes
   A. Schedule of Questioned Costs and Funds To Be Put to Better Use          14
   B. Auditee Comments and OIG’s Evaluation                                   15
   C. Federal Requirements and the Authority’s Policies                       23




                                            2
                     BACKGROUND AND OBJECTIVES

The Aurora Housing Authority was established under the laws of the State of Illinois to provide
decent, safe, and sanitary housing in a suitable environment for families of low income, at rent
rates they can afford to pay. The Authority operates under the direction of a seven-member
board of commissioners. The mayor of Aurora appoints the commissioners to serve 5-year
staggered terms. The board’s responsibilities include appointing the executive director,
developing policy, and approving and monitoring budgets. The executive director is responsible
for directing the operations of the Authority’s programs and ensuring that policies are followed.

The Public Housing Capital Fund Stimulus (formula) Recovery Act funded grant is administered
by the U.S. Department of Housing and Urban Development’s (HUD) Office of Public Housing.
The grant funds are available for capital and management activities, including the development,
financing, and modernization of public housing projects.

On February 17, 2009, the President signed the American Recovery and Reinvestment Act. The
Recovery Act provided an additional $4 billion to public housing agencies to carry out capital
and management activities, including the modernization and development of public housing. It
required that $3 billion of these funds be distributed as formula grants and the remaining $1
billion be distributed through a competitive process. In March 2009, the Authority received a
formula grant of more than $1.4 million. According to HUD requirements, the Authority was
required to obligate 100 percent of its grant funds within 1 year, expend 60 percent of the funds
within 2 years, and fully expend the funds within 3 years. As of March 2010, the Authority had
obligated all of its grant funds and the funds were fully expended as of December 2010.

Our objective was to determine whether the Authority effectively administered its grant in
accordance with Recovery Act, HUD’s, and its own requirements. Specifically, we wanted to
determine whether the Authority (1) properly obligated and expended its Recovery Act grant
funds, (2) followed Recovery Act requirements when procuring contracts for goods and services,
and (3) accurately reported its Recovery Act activities.




                                                3
                                      RESULTS OF AUDIT

Finding: The Authority Did Not Follow Recovery Act, HUD’s, or Its
Own Requirements
The Authority did not follow Recovery Act, HUD’s, or its own requirements. Specifically, it did
not ensure that its contractors (1) complied with Buy American Act and Energy Star standards
and (2) appropriately paid their employees prevailing wages in accordance with the Davis-Bacon
Act. The Authority also did not ensure that work was complete before payments were made and
accurately report the progress of its Recovery Act grant activities. These weaknesses occurred
because the Authority did not adequately monitor its contractor to ensure compliance with
Federal requirements. Additionally, the Authority lacked a complete understanding of Federal,
Recovery Act, and Davis-Bacon requirements. As a result of the Authority’s noncompliance,
HUD and the Authority lacked assurance that more than $346,000 in Recovery Act grant funds
was used appropriately. Additionally, the public did not have access to accurate information
regarding the number of jobs created and retained with formula grant funds, and the Authority’s
use of formula grant funds was not transparent.


The Authority Did Not Ensure
That Its Contractor
Purchased American-Made Products

                  The Authority’s Recovery Act contractor certified that all materials, components,
                  and manufactured goods used for the project were made in the United States.
                  However, the Authority did not obtain documentation to support whether the
                  materials purchased by the contractor were manufactured in the United States in
                  accordance with the Buy American Act. 2

                  We reviewed the materials purchased by the contractor. The Authority’s
                  contractor purchased $2,400 in roofing products manufactured in Canada. In
                  addition, the Authority was unable to provide documentation identifying the
                  location of manufacture for $117,419 of the products purchased as part of the
                  Recovery Act grant contract. According to the Authority’s contract specialist, he
                  researched American-made products before issuing the request for bids. The bid
                  specifications included a list of materials and products manufactured in the United
                  States. However, the Authority did not require the contractor to submit
                  supporting documentation to ensure compliance with the Buy American Act
                  requirements.




2
    Recovery Act, Section 1605 – Buy American

                                                   4
The Authority Did Not Follow
Federal Energy Efficiency
Requirements


                   We reviewed the material invoices from the Authority’s contractor to determine
                   whether the products purchased met the minimum Federal energy efficiency
                   requirements. 3 The contractor purchased $129,154 in windows and $64,008 in
                   shingles that were subject to but did not meet Energy Star standards. According
                   to HUD’s requirements, the Authority should purchase Energy Star-labeled
                   products unless a cost analysis finds that the proposed purchase would not be cost
                   effective. The Authority did not complete a cost analysis to determine whether its
                   contractor’s purchases were cost effective.

                   The Authority’s development director said he was not aware of HUD’s energy
                   efficiency requirements. However, the Authority’s procurement policy, updated
                   on January 27, 2010, stated that all specifications would be written to include
                   energy-efficient products and appliances with an Energy Star or Federal Energy
                   Management Program rating.

The Davis-Bacon Act Was Not
Followed

                   The Authority did not adequately administer the Davis-Bacon requirements for its
                   Recovery Act grant project. According to regulations, the Davis-Bacon Act
                   applies to all construction contracts greater than $2,000. The Authority executed
                   one Recovery Act construction contract in excess of $2,000. It did not obtain
                   sufficient documentation from the contractor to determine whether its employees
                   were paid prevailing wage rates in accordance with the Davis-Bacon Act. 4

                   We reviewed the Authority’s payroll reports and records of employee interviews
                   for the Recovery Act contract. It was unable to provide payroll reports or pay
                   stubs to support $32,857 in wages paid to its contractor and payroll reports for 5
                   of the 11 employees interviewed.

                   From the 217 payroll reports provided, 36 were incomplete. Further, the
                   Authority did not obtain copies of pay stubs to ensure that the contractor’s
                   employees received prevailing wages as certified in the payroll reports provided.
                   Based on our review of the payroll reports, eight employees were underpaid by
                   $919 from the number of hours certified on the payroll reports. For two
                   employees, the contractor certified on the payroll reports that they worked 29.5
                   hours during the week at the prevailing wage rates. However, according to the
                   employees’ pay stubs, they were paid the appropriate prevailing wages for 28
                   hours and received wages that were less than the prevailing wage rates for the

3
    24 CFR (Code of Federal Regulations) 965.306 and the Authority’s procurement policy, section XI(C)
4
    Recovery Act, Section 1606 - Wages

                                                         5
                remaining 1.5 hours. The remaining six employees did not receive overtime
                wages for the number of hours that were certified on the payroll reports.

The Authority Did Not Follow
Procurement Requirements


                The Authority executed two Recovery Act grant contracts. However, it did not
                follow HUD’s procurement requirements 5 for one of the contracts. The Authority
                did not advertise a request for qualifications for architectural services in
                newspapers or other print mediums, trade journals or publications, or e-
                procurement systems as required by HUD. 6 Instead, it directly solicited responses
                from eight firms.

                The Authority’s development director states that noncompetitive procedures were
                used for the contract because of obligation constraints for the Recovery Act funds.
                The proposals were due on October 22, 2009, and the Authority directly solicited
                the architectural firms on September 2, 2009. Therefore, it had sufficient time
                between September 2 and October 22, 2009, to advertise the request for a
                minimum of 2 consecutive weeks in accordance with HUD’s requirements. 7


The Authority Failed To
Adequately Provide Inspection
Reports of Contracted Work

                We reviewed the inspection reports for the Authority’s Recovery Act program8
                grant construction contract to determine whether it ensured that work was
                complete before issuing payments. 9 We reviewed the inspections completed by
                the Authority’s staff, its architectural and engineering firm, and the City of
                Aurora. For the 482 work items included in the contractor’s schedule of
                payments, the Authority provided support that 164 work items were inspected. Of
                the 164 items inspected, 100 were inspected after the payments were made.
                During the audit, we inspected the project to determine whether the work was
                complete. The work items included in the construction contract were completed.
                However, the Authority failed to adequately document the completion of work
                items before making the payments.




5
  24 CFR 85.36(c)(1) and HUD Handbook 7460.8, REV-2, paragraph 7.1(F)
6
  24 CFR 85.36(d)(3)(i) and HUD Handbook 7460.8, REV-2, paragraph 7.1(G)
7
  HUD Handbook 7460.8, REV-2, paragraph 7.1(G)
8
  24 CFR 5.5(a)(3)(ii)(A)
9
  Office of Public and Indian Housing (PIH) Notice 2009-12, section 7

                                                    6
The Authority Did Not
Accurately Report Recovery
Act Grant Activities

                  The Authority submitted Recovery Act program grant progress reports in a timely
                  manner. However, it did not correctly report the number of jobs created and
                  retained or the amount of vendor payments. The Authority reported the number
                  of jobs created by the Recovery Act program 10 grant projects but did not include
                  the number of jobs retained. As a result, the number of jobs was underreported by
                  two jobs on three reports and overreported by two jobs on one report.

                  Further, the Authority incorrectly reported its vendor payments as subawards.
                  Therefore, the amount of vendor payments was incorrectly reported on each
                  quarterly report. However, the total funds received and expended were correct.


The Authority Lacked
Knowledge of Recovery Act and
Federal Requirements

                  The Authority lacked a complete understanding of applicable requirements. For
                  instance, according to the Authority’s development director, he was not aware of
                  HUD’s energy efficiency requirements. However, the Authority’s procurement
                  policy, updated on January 27, 2010, stated that all specifications would be
                  written to include energy-efficiency products and appliances with an Energy Star
                  or Federal Energy Management Program rating. Further, the Authority did not
                  provide adequate oversight of its contractors. It relied on its contractors to ensure
                  compliance with Federal and Recovery Act requirements instead of overseeing
                  the implementation of its procured Recovery Act contracts.

Conclusion


                  The Authority failed to ensure that its contractors purchased products
                  manufactured in the United States and that met Federal energy efficiency
                  requirements and paid prevailing wages in accordance with the Davis-Bacon Act.
                  The Authority did not follow HUD’s procurement requirements and its own
                  policies, ensure that work was complete before payments were made, or correctly
                  report the progress of its Recovery Act grant activities. As a result, the
                  Authority’s contractor purchased $2,400 in products manufactured outside the
                  United States and was unable to provide support for the location of manufacture
                  for $117,419 in products.



10
     Office of Management and Budget Memorandum M-10-08, part 2

                                                     7
           Further, the Authority did not complete a cost analysis to support the purchase of
           $193,162 ($129,154 + $64,008) in products that did not meet Energy Star
           standards. It also was unable to provide support for $32,857 in wages paid, and
           its contractor underpaid $919 in wages to eight of its employees. HUD and the
           Authority lacked assurance that the architectural contract was procured in
           accordance with HUD’s requirements and Recovery Act construction work was
           completed before payments were made, the public had access to accurate
           information regarding the number of jobs created and retained with formula grant
           funds, and the Authority use of formula grant funds was transparent.

Recommendations


           We recommend that the Director of HUD’s Chicago Office of Public Housing
           require the Authority to

            1A. Reimburse HUD $2,400 from non-Federal funds for transmission to the
                U.S. Treasury for the Recovery Act program grant funds used to purchase
                products contrary to the Buy American Act.

            1B. Provide support or reimburse HUD $117,419 from non-Federal funds for
                transmission to the U.S. Treasury for the products purchased with
                Recovery Act grant funds with unsupported locations of manufacture.

            1C. Provide a cost analysis to support the purchase of windows and shingles
                that did not meet Energy Star standards as being cost effective or
                reimburse HUD $193,162 from non-Federal funds for transmission to the
                U.S. Treasury.

            1D. Pursue collections from the contractor and provide support of corrective
                payments made to its employees or reimburse the contractor’s employees
                $919 from non-Federal funds.

            1E. Provide support or reimburse HUD $32,857 from non-Federal funds for
                transmission to the U.S. Treasury for the unsupported wages paid by
                Recovery Act grant contractors.

            1F. Ensure that all applicable staff is trained and familiar with Federal
                procurement requirements.

            1G. Develop and implement procedures to ensure that contracts are procured
                in accordance with HUD’s requirements, contractors follow Federal
                requirements, and inspections are performed to ensure that work is
                complete before payments are made.




                                            8
1H. Review all grant information reported on the FederalReporting.gov Web
    site, provide HUD with a summary of any discrepancies, and maintain
    corrected documentation on file.

1I.   Develop and implement procedures and controls to ensure the accuracy,
      completeness, and timeliness of all reports submitted to HUD or other
      Federal agencies for the Authority’s programs.




                              9
                         SCOPE AND METHODOLOGY

To accomplish our objectives, we reviewed

           x   Applicable laws and regulations; the Recovery Act; the Energy Policy Act of
               2005; Office of Management and Budget memorandums; 2 CFR (Code of Federal
               Regulations) Part 225; HUD’s program requirements at 24 CFR Parts 85, 135,
               905, 964, 965, and 990; 29 CFR Part 5; HUD’s Office of Public and Indian
               Housing notices; HUD Handbook 7460.8, REV-2; HUD Guidebook 7510.1; and
               HUD’s Recovery Act reporting guidance.

           x   The Authority’s accounting records and bank statements; annual audited financial
               statements for fiscal years 2007, 2008, 2009, and 2010; contract files; policies and
               procedures; board meeting minutes for March 2009 through January 2012;
               organizational chart; program annual contributions contract with HUD; and 5-
               year and annual plans.

           x   Contractor’s invoices and payroll reports.

           x   HUD’s files for the Authority.

We also interviewed the Authority’s employees and HUD’s staff.

We reviewed the Authority’s Recovery Act program contract files. The Authority executed two
contracts as part of its Recovery Act grant activities. The two contracts included an architectural
and engineering contract and a construction contract. We reviewed the material invoices for the
construction contract to determine the product manufacturers. We performed Internet searches
and contacted the companies to determine the country of manufacture for their products. We
also compared the energy ratings for the products purchased with the minimum energy efficiency
standards.

We reviewed the payroll reports and employee interviews obtained by the Authority for the
construction contract to determine whether the Authority ensured that its contractors paid
prevailing wages in accordance with the Davis-Bacon Act. We compared the payroll reports to
the pay stubs provided by the contractor to determine the amounts paid to the employees. We
compared the wages paid to the employees with the applicable prevailing wages.

We reviewed the inspections completed by the Authority, its architectural firm, and the City of
Aurora in their entirety. We compared the inspections to the contract activities reported on the
contractor’s schedule of payments to determine whether the Authority conducted the inspections
before issuing payments.

We reviewed the Authority’s Recovery Act program contract files in their entirety to determine
whether the Authority procured and executed the contracts in accordance with HUD’s
requirements and its policies and procedures. We also reviewed the Recovery Act grant progress

                                                10
reported by the Authority through FederalReporting.gov to determine whether the Authority
accurately reported the (1) amount of funds obligated and expended, (2) jobs created and
retained, and (3) vendor payments.

We relied in part on data maintained by the Authority in its systems. Although we did not
perform a detailed assessment of the reliability of the data, we performed a minimal level of
testing and found the data to be adequately reliable for our purposes.

We performed our onsite audit work from March to April 2012 at the Authority’s offices located at
1630 West Plum Street, Aurora, IL. The audit covered the period March 1, 2009, through January
31, 2012, but was expanded as determined necessary.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.




                                                 11
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   x   Effectiveness and efficiency of operations,
   x   Reliability of financial reporting, and
   x   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objectives:

               x      Effectiveness and efficiency of operations – Policies and procedures that
                      management has implemented to reasonably ensure that a program meets
                      its objectives.

               x      Reliability of financial reporting – Policies and procedures that
                      management has implemented to reasonably ensure that valid and reliable
                      data are obtained, maintained, and fairly disclosed in reports.

               x      Compliance with applicable laws and regulations – Policies and
                      procedures that management has implemented to reasonably ensure that
                      resource use is consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal controls exists when the design or operation of a control
               does not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                12
Significant Deficiencies


              Based on our review, we believe that the following item is a significant
              deficiency:

              x   The Authority lacked adequate procedures and controls to ensure that (1) its
                  contractors purchased products that were manufactured in the United States in
                  accordance with the Buy American Act and met Federal energy efficiency
                  standards and paid prevailing wages in accordance with the Davis-Bacon Act,
                  (2) inspections were performed and documented before payments were issued,
                  (3) procurements were conducted in accordance with HUD’s requirements
                  and the Authority’s policies and procedures, and (4) it accurately reported
                  appropriate information in FederalReporting.gov (see finding).


Separate Communication of
Minor Deficiencies


              We informed the Authority’s executive director and the Director of HUD’s
              Chicago office of Public Housing of minor deficiencies through a memorandum,
              dated August XX, 2012.




                                              13
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

          Recommendation          Ineligible 1/   Unsupported 2/   Funds to be put
                 number                                            to better use 3/
                          A            $2,400
                          B                            $117,419
                          C                             193,162
                          D                                                   $919
                          E                              32,857
                       Total           $2,400          $343,438               $919

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     polices or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified.




                                             14
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation                         Auditee Comments

                            Office of the Inspector General Audit Responses

             The following contains findings and responses to a draft audit report of the Aurora Housing
             Authority's, Public and Indian Housing Capital Fund Stimulus (formula) grant performed by
             the Office of the Inspector General for Audit – Region V:

             AUDIT FINDING: The AHA did not ensure that the Contractor purchased American-Made
             Products:

             The Authority's Recovery Act Contractor certified that all materials, components, and
             manufactured goods used for the project were made in the United States. However, the
             Authority did not obtain documentation to support whether the materials purchased by the
             contractor were manufactured in the United States in accordance with the Buy American
             Act requirements.

             We reviewed the materials purchased by the contractor. The Authority's contractor
             purchased $2,400 in roofing products manufactured in Canada.

             In addition, the Authority was unable to provide invoiced documentation identifying the
             location of manufacture for $117,419 of the products purchased as part of the Recovery
             Act grant contract. According to the Authority's contract specialist, he researched
             American-made products before issuing the request for bids. The bid specifications
             included a list of materials and products manufactured in the United States. However, the
             Authority did not require the contractor to submit supporting documentation to ensure
             compliance with the Buy American Act requirements.

             AHA RESPONSE:

             The $2,400 in roofing products manufactured in Canada is IKO Stormsheild Roofing
Comment 1    Underlayment used in the valley areas of each roof. This product was necessary to
             facilitate the proper installation of the roofing material. The IKO Stormsheild used was
             recommended by the roofing shingle manufacturer as a second line of defense for water
             on all gutter eves and valley ways on the roof. The IKO Stormsheild was used to maintain
             warranty on the Tamko Shingles that were installed. Tamko does not have a distribution
             for Ice and Water in the Chicago land market. The underlayment was not part of the
             original job specifications and it was necessary to expedite the purchase of the
             underlayment in order to prevent a work stoppage by the roofing contractor.

             The AHA requested information from the Contractor for the $117,419 worth of items in
             question, to support the fact that all materials, components, and manufactured goods used
             for the project were made in the United States. The Contractor did provide the requested
             documentation to the AHA which confirms that the products were manufactured in the
Comment 2    United States. This information was subsequently provided to the IG Office by e-mail but
             was not provided in time to be included in the draft report. Copies of all supporting
             documentation are attached in Section A.




                                                 15
Ref to OIG Evaluation                          Auditee Comments

             FINDING: The Authority did not follow Federal Energy Requirements.

             We reviewed the material invoices from the Authority's contractor to determine whether
             the products purchased met the minimum Federal energy efficiency requirements. The
             Contractor purchased $129,154 in windows and $64,008 in shingles that were subject to
             but did not meet Energy Star standards. According to HUD's requirements, the Authority
             should purchase Energy Star-labeled products unless cost-analysis finds that the
             proposed purchase would not be cost effective. The Authority did not complete a cost
             analysis to determine whether its contractor's purchases were cost effective.

             AHA RESPONSE:

             The AHA used a Pella double glazed, 11/16” Advanced Low E IG with argon/2.5mm glass,
Comment 3    double hung fiberglass window frame with a U-Factor of 0.32 and an SHGA (Solar Heat-
             Gain Coefficient) rating of 0.28. The U-Factor of 0.32 met Energy Star-labeled
             requirements for 2010.

             In Northern Climates Zones, SHGC is less important than a window’s U-factor. In
             situations where air-conditioning costs during warm weather months can become high,
             windows with an SHGC of less than 0.30 are beneficial since they allow less heat gain.
             The lower the SHGA number, the less heat gain allowed through the window.

             Air-conditioning costs during warm months are a prime concern of our residents. The AHA
             selected this double glazed, double hung fiberglass window frame with an SHGA rating of
             0.28 as it allows less heat gain during the warm weather months.

             According to current energy standards, a similar Pella window has received a 2012 Energy
             Star-labeled rating with a U-Factor of 0.29 and an SHGA rating of 0.28. Energy Star
             ratings have recognized that a lower SHGA rating is preferable for the Northern Climate
             Zone.

             The AHA selected a conventional double-layer fiberglass mat weathering-grade asphalt
             shingle for the following reasons:

Comment 4        1.   The Energy Star rated shingles cost approximately $128.00 per square versus
                      $69.00 per square for conventional double-layer fiberglass mat weathering-grade
                      asphalt shingles. This represents a 46% increase in cost for Energy Star-labeled
                      shingles over the shingles purchased.
                 2.   In order to maximized energy savings while minimizing costs, the AHA chose to
                      install more insulation in the ceilings of the buildings. The added insulation
                      increased the rating to a value of R-38. The AHA also installed additional roof
                      vents, including a ridge roof vent, to minimize attic heat gain during warm weather
                      months and reduce heat loss during cold weather months due to temperature
                      variances.
                 3.   In 2009 when the rehabilitation was being done, there were few colors available in
                      the Energy Star-labeled shingle. It was our goal to have a final product that fit into
                      the surrounding community norms. The color of shingles used (TAMKO Heritage
                      30AR




                                                  16
Ref to OIG Evaluation                         Auditee Comments

                     Color Aged Wood) blended well with the siding material colors used for the
                     buildings and also fit in well with the surrounding neighborhood

             Copies of all supporting documentation are attached in Section B.

             FINDING: The Davis Bacon Act Was Not Followed

             The Authority did not adequately administer the Davis-Bacon requirements for its
             Recovery Act grant project. According to regulations, the Davis-Bacon Act applies to all
             construction contracts greater than $2,000. The Authority executed one Recovery Act
             construction contract in excess of $2,000. It did not obtain sufficient documentation from
             the contractor to determine whether its employees were paid prevailing wage rates in
             accordance with the Davis-Bacon Act.

             We reviewed the Authority's payroll reports and records of employee interviews for the
             Recovery Act contract. It was unable to provide payroll reports or pay stubs to support
             $32,857.00 in wages paid to its contractor and payroll reports for 5 of the 11 employees
             interviewed.

             From the 217 payroll reports provided, 36 were incomplete. Further, the Authority did not
             obtain copies of pay stubs to ensure that the contractor's employees received prevailing
             wages as certified in the payroll reports provided.

             Based on our review of the payroll reports, eight employees were underpaid by $919.00
             from the number of hours certified on the payroll reports.

             For two employees, the contractor certified on the payroll reports that they worked 29.5
             hours during the week at the prevailing wage rates. However, according to the employees'
             pay stubs, they were paid the appropriate prevailing wages for 28 hours and received
             wages that were less than the prevailing wage rates for the remaining 1.5 hours. The
             remaining six employees did not receive overtime wages for the number of hours that
             were certified on the payroll reports.

             AHA RESPONSE:

             The AHA requested documentation from the Contractor to confirm compliance with the
             Davis-Bacon Act. The Contractor provided supporting documentation for the majority of
             the payroll records. However, due to continued depressed economic conditions, the
             Contractor was unable to obtain all of the requested records. Since the project was
             completed in 2010, several sub-contractors have closed their businesses, filed bankruptcy
             and cannot be reached.

             The Contractor has agreed to reimburse the eight employees $919.00. Supporting
             documentation will be provided when it is received.

             Copies of all supporting documentation provided by the Contractor are attached in Section
Comment 5
             C.




                                                 17
Ref to OIG Evaluation                           Auditee Comments

             FINDING: The Authority did not follow Procurement Requirements

             The Authority executed two Recovery Act grant contracts. However, it did not follow HUD's
             procurement requirements for one of the contracts.

             The Authority did not advertise a request for qualifications for architectural services in
             newspapers or other print mediums, trade journals or publications, or e- procurement
             systems as required by HUD. Instead, it directly solicited responses from eight firms.

             The Authority's development director states that noncompetitive procedures were used for
             the contract because of obligation constraints for the Recovery Act funds. The proposals
             were due on October 22, 2009, and the Authority directly solicited the architectural firms
             on September 2, 2009. Therefore, it had sufficient time between September 2 and October
             22, 2009, to advertise the request for a minimum of 2 consecutive weeks in accordance
             with HUD's requirements.

             AHA RESPONSE:

             The AHA did use a competitive process for the selection of an architectural firm. However,
             in an effort to assure that all funds on this project were obligated in a timely manner, the
             AHA did not advertise but instead directly solicited proposals from eight qualified
             professional A&E firms in the area that had previously replied to other AHA Requests for
             Proposals (RFP). Six of the firms submitted proposals.

             The AHA had several meetings with contacted A&E firms before proposals were submitted
             to familiarize them with the scope of planned work and the importance of specifying a
             finished product similar to private developments in the area, not similar to the existing site.

             The same requirements and evaluation criteria that would have been placed in an RFP for
Comment 6    A&E Services, was provided and required from the eight solicited firms. This assured that
             the procurement activity was conducted in a manner providing full and open competition
             consistent with the standards of § 85.36.

             The firms that submitted proposals had to meet all qualifications required in a normal RFP
             for A&E Services and were evaluated consistent with AHA procurement standards. The
             AHA used the contract negotiation process to select the most highly qualified professional
             respondent at a fair and reasonable price that was most advantageous to the AHA based
             on evaluation criteria, qualifications, previous work history, price and other considerations
             detailed in the RFP.

             FINDING: The AHA failed to adequately provide inspection reports of contracted work:

             We reviewed the inspection reports for the Authority's Recovery Act program grant
             construction contract to determine whether it ensured that work was complete before
             issuing payments. We reviewed the inspections completed by the Authority's staff, its
             architectural and engineering firm, and the City of Aurora. For the 482 work items
             included in the contractor's schedule of




                                                   18
Ref to OIG Evaluation                          Auditee Comments

             payments, the Authority provided support that 164 work items were inspected. Of the 164
             items inspected, 100 were inspected after the payments were made.

             During the audit, we inspected the project to determine whether the work was complete.
             The work items included in the construction contract were completed. However, the
             Authority failed to adequately document the completion of work items before making the
             payments.

             AHA RESPONSE:

             Payments are never made for work on any project until it is inspected, completed and
             accepted by the AHA.

             The payout inspection process consists of the following steps:

                     1.   Rough inspection by the City of Aurora;
                     2.   Finish inspection by the City of Aurora;
                     3.   Punch list and completion inspection by the AHA A&E firm and AHA staff; and
                     4.   Completion inspection by AHA staff

             The AHA employs a part-time Accounts Payable Clerk. Due to scheduling issues, the
             contract specialist may request that a check be processed in anticipation of a project
             completion date. In some instances, the date on the check may be prior to the actual
Comment 7    inspection/approval date. However, checks are never released to a contractor until the
             project has been fully inspected and approved.

             Again due to scheduling issues, a contractor may be paid prior to receiving a final sign off
             from the City of Aurora. However, the work must be inspected and accepted by the AHA
             and A&E before payment is released.

             FINDING: The Authority did not Accurately Report Recovery Grant Activities:

             The Authority submitted Recovery Act program grant progress reports in a timely manner.
             However, it did not correctly report the number of jobs created and retained or the amount
             of vendor payments.

             The Authority reported the number of jobs created by the Recovery Act program grant
             projects but did not include the number of jobs retained. As a result, the number of jobs
             was underreported by two jobs on three reports and over reported by two jobs on one
             report.

             Further, the Authority incorrectly reported its vendor payments as subawards. Therefore,
             the amount of vendor payments was incorrectly reported on each quarterly report.
             However, the total funds received and expended were correct.




                                                  19
Ref to OIG Evaluation                           Auditee Comments

             AHA RESPONSE:

             The AHA acknowledges the errors as reported. The Recovery Act program grant had a
             complex set of new regulations and the errors in reporting information were unintentional.
             It was unclear to the AHA as to how the number of jobs retained was to be classified on
             the reports. Once the errors were identified, there was no mechanism in place in the
             reporting system to correct the data.

             FINDING: The Authority Lacked Knowledge of Recovery Act and Federal Requirements

             The Authority lacked a complete understanding of applicable requirements. For instance,
             according to the AHA’s development director, he was not aware of HUD’s energy
             efficiency requirements. However, the Authority's procurement policy, updated on January
             27, 2010, stated that all specifications would be written to include energy-efficiency
             products and appliances with an Energy Star or Federal Energy Management Program
             rating.

             Further, the Authority did not provide adequate oversight of its contractors. It relied on its
             contractors to ensure compliance with Federal and Recovery Act requirements instead of
             overseeing the implementation of its procured Recovery Act contracts.

             AHA RESPONSE:

             The AHA procured all products purchased by the AHA with the Recovery Act funds per the
Comment 8    regulations in 24 CFR 965.306 and PIH 2009-9 which states that “when purchasing
             original or, when needed, replacement equipment, PHAs shall acquire only equipment that
             meets or exceed the minimum energy requirements established by the U.S. Department of
             Energy (DOE). In the operation of their facilities, PHAs shall follow operating practices
             directed to maximize energy conservation. This notice encourages increasing the
             standard to that of purchasing ENERGY STAR PROCDUCTS.”

             All of the products used met or exceeded minimum energy requirements of the DOE. The
             AHA maximized energy conservation in every instance when cost savings were warranted.

             The Auditors provided valuable insight and information that the AHA will utilize for all
             future contracts to further ensure compliance with applicable regulations. The AHA will
             review all of its internal processes and controls and provide on-going training for staff as
             needed.




                                                   20
                        OIG’s Evaluation of Auditee Comments

Comment 1   The Authority stated that the roofing products manufactured in Canada were
            necessary to facilitate the proper installation of the roofing material. However,
            the Authority was unable to provide documentation to support that it requested or
            received a waiver from HUD of the Buy American purchase requirements. The
            Authority also stated that the purchase was expedited to prevent work stoppage.
            However, it was unable to provide documentation that expediting the purchase for
            the underlayment from Canada met the objectives of the Recovery Act.

Comment 2   The Authority stated that documentation was provided to determine the location
            of manufacture for the $117,419 of unsupported funds. However, the
            documentation provided was not sufficient to determine the products purchased or
            the location of manufacture. The supporting documentation included in Section A
            was not attached due to its size and use of personally identifiable information.
            The supporting documentation was not necessary to understand the Authority’s
            comments.

Comment 3   The Authority stated that it installed windows with a U-Factor of 0.32 and a Solar
            Heat-Gain Coefficient of 0.28, and that the U-Factor of 0.32 met Energy Star
            requirements. According to Energy Star requirements, a window with a U-Factor
            of 0.32, must have a SHGC rating of 0.40 or higher for the Northern region of the
            United States. Therefore, the windows purchased by the Authority did not meet
            Energy Star requirements. The Authority was unable to provide a cost analysis
            justifying the purchase of windows that did not meet the Energy Star
            requirements.

Comment 4   The Authority stated the approximate costs and R-values for Energy Star-rated
            shingles and the shingles its contractor purchased and installed. However, the
            Authority was unable to provide documentation to support its determination of the
            shingle costs or the R-values provided.

Comment 5   The Authority stated that documentation was provided to determine whether its
            contractor’s employees were paid in accordance with the Davis-Bacon Act.
            However, the documentation provided was not sufficient to determine whether the
            contractor’s employees were paid prevailing wages in accordance with the Davis-
            Bacon Act. The supporting documentation included in Section C was not
            attached due to its size and use of personally identifiable information.

Comment 6   The Authority stated that by providing the same requirements and evaluation
            criteria to the solicited architectural firms, it assured that the procurement was
            conducted in a manner providing full and open competition. However, in order to
            ensure procurements are conducted in a manner providing full and open
            competition consistent with the standards in 24 CFR 85, HUD requires that
            requests for qualifications for architectural services be advertised in newspapers
            or print medium, trade journals or publications, or e-procurement systems. Direct

                                            21
            solicitation does not allow for full and open competition.

Comment 7   The Authority stated that checks are never released to a contractor until the
            project has been fully inspected and approved. However, of the 482 work items
            included in the contract, the Authority was unable to provide supporting
            documentation that inspections were completed for 318 work items.

Comment 8   The Authority stated that all of the products used met or exceeded minimum
            energy requirements. However, the Authority did not provide documentation that
            items purchased met minimum Energy Star requirements. The Authority also did
            not provide a cost analysis justifying the purchases that did not meet Energy Star
            requirements.




                                             22
Appendix C

      FEDERAL REQUIREMENTS AND THE AUTHORITY’S
                      POLICY

Section 1605 of the Recovery Act states that none of the funds appropriated or otherwise made
available by this Act may be used for a project for the construction, alteration, maintenance, or
repair of a public building or public work unless all of the iron, steel, and manufactured goods
used in the project are produced in the United States.

Section 1606 of the Recovery Act states that notwithstanding any other provision of law and in a
manner consistent with other provisions in this Act, all laborers and mechanics employed by
contractors and subcontractors on projects funded directly by or assisted in whole or in part by
and through the Federal Government pursuant to this Act should be paid wages at rates not less
than those prevailing on projects of a character similar in the locality as determined by the
Secretary of Labor in accordance with subchapter IV of chapter 31 of Title 40 United States
Code.

Office of Management and Budget Memorandum M-10-08, part 2, states that recipients of
Recovery Act funds subject to Section 1512 are required to submit estimates of jobs created and
jobs retained for each project or activity in their recipient reports.

Regulations at 24 CFR 5.5(a)(3)(ii)(A) state that the contractor should submit weekly, for each
week in which any contract work is performed, a copy of all payrolls.

Regulations at 24 CFR 85.36(c)(1) state that all procurement transactions will be conducted in a
manner providing full and open competition.

Regulations at 24 CFR 85.36(d)(3)(i) state that requests for proposals will be publicized and
identify all evaluation factors and their relative importance.

Regulations at 24 CFR 965.306 state that in purchasing original or replacement equipment,
public housing agencies must acquire only equipment that meets or exceeds the minimum energy
requirements established by the U.S. Department of Energy.

PIH Notice 2009-09, section 8, states that a public housing agency should purchase Energy Star
labeled products such as windows and ensure that any new buildings are constructed according
to Energy Star standards, unless the public housing agency’s cost analysis finds that the
incremental cost of the Energy Star products or building yields a negative life-cycle cost savings
and exceeds HUD’s total development cost limits.

PIH Notice 2009-12, section 7, states that the public housing agency should requisition funds
only when payment is due and after inspection and acceptance of the work.



                                                23
HUD Handbook 7460.8, REV-2, paragraph 7.1(F), states that the following methods of
solicitation can be employed for competitive proposals: (1) advertising in newspapers or other
print mediums, (2) advertising in various trade journals or publications, or (3) using e-
procurement systems.

HUD Handbook 7460.8, REV-2, paragraph 7.1(G), states that the solicitation must be run for a
period sufficient to achieve effective competition, which should generally be not less than once
each week for 2 consecutive weeks.

The Authority’s procurement policy, section XI(C), states that all specifications will be written
to include energy-efficient products and appliances with an Energy Star or Federal Energy
Management Program rating according to the Energy Policy Act of 2005.




                                                24
